LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

July 8, 2020

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-783:

NATHAN VAN BUREN V. UNITED STATES

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amicus Curiae The Markup,
on July 8, 2020, I caused service to be made pursuant to Rule 29 on the following
counsel for the Petitioner and Respondent:
PETITIONER:
Jeffrey L. Fisher
Stanford Law School
Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
650-724-7081
jlfisher@law.stanford.edu

RESPONDENT:
The Honorable Jeffrey Wall
Acting Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of the Brief of Amicus Curiae
The Markup in an official “first class mail” receptacle of the United States Post Office
as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 8th day of July 2020.

